Department of Health and Human Services
                   OFFICE OF

              INSPECTOR GENERAL





          SOME HOSPITALS IN

        ALABAMA, GEORGIA, AND

         TENNESSEE CLAIMED

       RESIDENTS AS MORE THAN

      ONE FULL-TIME EQUIVALENT




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    James P. Edert

                                               Regional Inspector General

                                                   for Audit Services


                                                        July 2014

                                                      A-02-13-01012

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                    EXECUTIVE SUMMARY


Some teaching hospitals in Alabama, Georgia, and Tennessee counted residents and interns
as more than 1 full-time equivalent, resulting in excess Medicare reimbursement of
approximately $84,000 over 2 years.


WHY WE DID THIS REVIEW

Prior Office of Inspector General reviews found that hospitals in two Medicare Administrative
Contractor (MAC) jurisdictions counted residents and interns as more than one full-time
equivalent (FTE) and, as a result, received excess Medicare graduate medical education (GME)
reimbursement. (In this report, “resident” includes hospital interns.) Based on our findings, we
initiated a nationwide series of reviews of hospitals’ resident counts.

The objective of this review was to determine whether hospitals in MAC Jurisdiction 10
(consisting of three States – Alabama, Georgia, and Tennessee) claimed Medicare GME
reimbursement for residents in accordance with Federal requirements.

BACKGROUND

Federal law authorizes two types of payments to teaching hospitals to support GME programs for
physicians and other practitioners. Direct GME payments are Medicare’s share of the direct
costs of training residents, such as salaries and fringe benefits of residents and faculty and
hospital overhead expenses. Indirect GME payments cover the additional operating costs that
teaching hospitals incur in treating inpatients, such as the costs associated with using more
intensive treatments, treating sicker patients, using a costlier staff mix, and ordering more tests.

A hospital claims reimbursement for both direct and indirect GME, in part, based on the number
of FTE residents that the hospital trains and the portion of time those residents spend working at
the hospital. No resident may be counted as more than one FTE.

CMS makes available the Intern and Resident Information System (IRIS), a software application
that hospitals use to collect and report information on residents working in approved residency
training programs at teaching hospitals. The primary purpose of the IRIS is to ensure that no
resident is counted by the Medicare program as more than one FTE employee in the calculation
of payments for the costs of direct and indirect GME.

Cahaba Government Benefit Administrators, LLC (Cahaba) is a MAC under contract with CMS
to administer the Medicare Part A (hospital insurance) program for Jurisdiction 10. For fiscal
years (FYs) 2009 and 2010, hospitals in MAC Jurisdiction 10 claimed GME reimbursement
totaling approximately $189 million for direct GME and $444 million for indirect GME.




Alabama, Georgia, and Tennessee Hospitals’ Medicare GME Reimbursement (A-02-13-01012)                  i
HOW WE CONDUCTED THIS REVIEW

We obtained and analyzed the IRIS data submitted by teaching hospitals in MAC Jurisdiction 10
to identify residents who were claimed by more than one hospital for the same period and whose
total FTE count exceeded one. The FTE count for a resident exceeded 1 FTE when the total
direct GME percentage and/or the total indirect GME percentage for overlapping rotational
assignments, as reported in the IRIS, was greater than 100 percent. For each resident who was
counted as more than one FTE during an overlapping period, we obtained and reviewed
documentation from the hospitals to determine which hospital should have counted the resident.

WHAT WE FOUND

Hospitals in MAC Jurisdiction 10 did not always claim Medicare GME reimbursement for
residents in accordance with Federal requirements. Specifically, 17 hospitals overstated direct
and/or indirect FTE counts on cost reports covering FYs 2009 and 2010. As a result, 9 of the 17
hospitals received excess Medicare GME reimbursement totaling $84,355 for residents who were
claimed by more than 1 hospital for the same period and counted in the IRIS as more than 1 FTE.
For the remaining eight hospitals, the FTE overstatements did not impact the hospitals’ Medicare
GME reimbursement.

The overstated FTE counts and excess reimbursement occurred because there was no Federal
requirement for Cahaba to review IRIS data that hospitals in MAC Jurisdiction 10 submitted to
detect whether a resident had overlapping rotational assignments at more than one hospital. As a
result, Cahaba did not have procedures to adequately ensure that no resident was counted as
more than one FTE in the calculation of Medicare GME payments.

RECOMMENDATIONS

We recommend that Cahaba:

    •	 recover $84,355 in excess Medicare GME reimbursement paid to nine hospitals in MAC
       Jurisdiction 10,

    •	 adjust the direct and indirect FTE counts claimed on the Medicare cost reports covering
       FYs 2009 and 2010 for each of the hospitals that did not always claim Medicare GME
       reimbursement in accordance with Federal requirements,

    •	 consider developing procedures to ensure that no resident is counted as more than one
       FTE in the calculation of Medicare GME payments, and

    •	 consider identifying and recovering any additional overpayments made to hospitals in
       MAC Jurisdiction 10 for residents whose FTE count exceeded one on Medicare cost
       reports submitted after FY 2010.




Alabama, Georgia, and Tennessee Hospitals’ Medicare GME Reimbursement (A-02-13-01012)              ii
CAHABA COMMENTS AND OUR RESPONSE

In written comments on our draft report, Cahaba did not concur with our recommendations.
Regarding our first two recommendations, Cahaba stated that our related findings have an
immaterial impact to the total reimbursable cost on each of the nine hospitals’ cost reports and
that Cahaba will not reopen and adjust the cost reports to collect excess GME reimbursement.
Regarding our third and fourth recommendations, Cahaba stated that its statement of work with
CMS does not require or provide funding for the review of IRIS data and its current procedures
provide reasonable assurance that GME reimbursement is free from material errors.

After reviewing Cahaba’s comments, we maintain that our findings and recommendations are
valid. Federal regulations state that no individual may be counted as more than one FTE in the
calculation of Medicare GME payments. The cost reports for the 17 hospitals included residents
whose total FTE count exceeded one.




Alabama, Georgia, and Tennessee Hospitals’ Medicare GME Reimbursement (A-02-13-01012)              iii
                                                     TABLE OF CONTENTS


INTRODUCTION ..............................................................................................................1


           Why We Did This Review ......................................................................................1


           Objective .................................................................................................................1


           Background .............................................................................................................1

                 Medicare Payments for Graduate Medical Education ................................1

                 Intern and Resident Information System ....................................................2

                 Cahaba Government Benefit Administrators, LLC ....................................2


           How We Conducted This Review...........................................................................2


FINDING ............................................................................................................................3


           Resident Full-Time Equivalent Count Exceeded One ............................................3


           Conclusion ..............................................................................................................3


RECOMMENDATIONS ....................................................................................................4


CAHABA COMMENTS AND

  OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................4


APPENDIXES


           A: Related Office of Inspector General Reports .....................................................5


           B: Audit Scope and Methodology...........................................................................6


           C: Cahaba Comments .............................................................................................8





Alabama, Georgia, and Tennessee Hospitals’ Medicare GME Reimbursement (A-02-13-01012)                                                      iv
                                                   INTRODUCTION

WHY WE DID THIS REVIEW

Prior Office of Inspector General (OIG) reviews found that hospitals in two Medicare
Administrative Contractor (MAC) jurisdictions counted residents and interns 1 as more than one
full-time equivalent (FTE) and, as a result, received excess Medicare graduate medical education
(GME) reimbursement. Based on our findings, we initiated a nationwide series of reviews of
hospitals’ resident counts. Appendix A contains a list of related OIG reports.

OBJECTIVE

Our objective was to determine whether hospitals in MAC Jurisdiction 10 claimed Medicare
GME reimbursement for residents in accordance with Federal requirements.

BACKGROUND

Medicare Payments for Graduate Medical Education

Since its inception in 1965, the Medicare program has shared in the costs of educational
activities incurred by participating hospitals. The Centers for Medicare & Medicaid Services
(CMS), which administers the Medicare program, makes two types of payments to teaching
hospitals to support GME programs for physicians and other practitioners. Direct GME
payments are Medicare’s share of the direct costs of training residents, such as salaries and fringe
benefits of residents and faculty and hospital overhead expenses. Indirect GME payments cover
the additional operating costs that teaching hospitals incur in treating inpatients, such as the costs
associated with using more intensive treatments, treating sicker patients, using a costlier staff
mix, and ordering more tests.

A hospital claims reimbursement for both direct and indirect GME, in part, based on the number
of FTE residents that the hospital trains and the portion of time those residents spend working at
the hospital. FTE status is based on the total time necessary to fill a residency slot (42 CFR §
412.105(f)(1)(iii)(A)). If a resident is assigned to more than one hospital, the resident counts as a
partial FTE based on the proportion of time worked in qualifying hospital areas 2 to the total time
worked by the resident. A hospital cannot claim the time spent by residents training at another
hospital. 3

For payment purposes, the total number of FTE residents is the 3-year “rolling average” of the
hospital’s actual FTE count for the current year and the preceding two cost-reporting periods (42
CFR §§ 412.105(f) and 413.79(d)(3)). No individual may be counted as more than one FTE. 4
1
    In this report, “resident” includes hospital interns.
2
    These areas are listed in 42 CFR § 412.105(f)(1)(ii).
3
    When referring to the time a resident spends at a hospital, the terms “working” and “training” are interchangeable.
4
    42 CFR §§ 412.105(f)(1)(iii)(A) and 413.78(b).


Alabama, Georgia, and Tennessee Hospitals’ Medicare GME Reimbursement (A-02-13-01012)                                     1
Each time a hospital claims GME reimbursement for a resident it must provide CMS with
information on the resident’s program, year of residency, dates and locations of training
(including training at other hospitals), and percentage of time working at those locations
(42 CFR §§ 412.105(f) and 413.75(d)).

Intern and Resident Information System

CMS makes available the Intern and Resident Information System (IRIS), a software application
that hospitals use to collect and report information on residents working in approved residency
programs at teaching hospitals. Hospitals receiving direct and/or indirect GME payments must
submit, with each annual Medicare cost report, IRIS data files that contain information on their
residents, including, but not limited to, the dates of each resident’s rotational assignment. The
primary purpose of the IRIS is to ensure that no resident is counted by the Medicare program as
more than one FTE employee in the calculation of payments for the costs of direct and indirect
GME. 5

Cahaba Government Benefit Administrators, LLC

Cahaba Government Benefit Administrators, LLC (Cahaba) is a MAC under contract with CMS
to administer the Medicare Part A (hospital insurance) program. Cahaba administers the
program for MAC Jurisdiction 10, which consists of three States—Alabama, Georgia, and
Tennessee. For FY 2009, 51 hospitals in MAC Jurisdiction 10 collected and reported
information to the IRIS on residents. In FY 2010, the figure was 50 hospitals.

For FYs 2009 and 2010, hospitals in MAC Jurisdiction 10 claimed GME reimbursement totaling
approximately $189 million for direct GME and $444 million for indirect GME.

HOW WE CONDUCTED THIS REVIEW

We obtained and analyzed the IRIS data submitted by teaching hospitals in MAC Jurisdiction 10
to identify residents who were claimed by more than one hospital for the same period and whose
total FTE count exceeded one. The FTE count for a resident exceeded 1 FTE when the total
direct GME percentage and/or the total indirect GME percentage for overlapping rotational
assignments, as reported in the IRIS, was greater than 100 percent. For each resident who was
counted as more than one FTE during an overlapping period, we obtained and reviewed
documentation from the hospitals to determine which hospital should have counted the resident.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.


5
    67 Fed. Reg. 48189 (July 23, 2002).


Alabama, Georgia, and Tennessee Hospitals’ Medicare GME Reimbursement (A-02-13-01012)               2
                                                     FINDING

RESIDENT FULL-TIME EQUIVALENT COUNT EXCEEDED ONE

If a resident is assigned to more than one hospital, the resident counts as a partial FTE based on
the proportion of time worked in the hospital to the total time worked by the resident. A hospital
cannot claim the time spent by a resident training at another hospital. 6 In addition, no individual
may be counted as more than one FTE in the calculation of Medicare GME payments. 7

For Medicare cost reports covering FYs 2009 and 2010, 17 hospitals 8 in MAC Jurisdiction 10
claimed GME reimbursement for a resident who was claimed by more than 1 hospital for the
same period and whose total FTE count exceeded 1. Specifically, these 17 hospitals overstated
FTE counts for direct GME reimbursement by a total of 2.50 FTEs for FY 2009 and 1.78 FTEs
for FY 2010. In addition, the 17 hospitals overstated FTE counts for indirect GME
reimbursement by a total of 2.06 FTEs for FY 2009 and 1.36 FTEs for FY 2010.

CONCLUSION

Nine of the seventeen hospitals with overstated FTEs in MAC Jurisdiction 10 received excess
Medicare GME reimbursement totaling $84,355. Specifically, we determined that these
hospitals overstated, on Medicare cost reports for 2009 through 2012, 9 FTE counts for FYs 2009
and 2010. We determined this by using CMS’s 3-year rolling average formula. The nine
hospitals overstated:

      •    direct GME reimbursement by $38,851 and

      •    indirect GME reimbursement by $45,504.

For the remaining eight hospitals, the overstated FTEs did not impact Medicare GME
reimbursement because the hospitals were still over their FTE caps 10 after adjusting the
claimable direct and/or indirect FTE counts.

The overstated FTE counts and excess reimbursement occurred because there was no Federal
requirement for Cahaba to review IRIS data that hospitals in MAC Jurisdiction 10 submitted to
detect whether a resident had overlapping rotational assignments at more than one hospital. As a

6
    42 CFR § 412.105(f)(1)(iii)(A).
7
    42 CFR §§ 412.105(f)(1)(iii)(A) and 413.78(b).
8
 For FYs 2009 and 2010, the 17 hospitals claimed GME reimbursement totaling approximately $118 million for
direct GME and $315 million for indirect GME.
9
 The 2009 FTE overstatements affected GME costs claimed on FYs 2010 and 2011 Medicare cost reports. The
FY 2010 FTE overstatements affected GME costs claimed on FYs 2011 and 2012 Medicare cost reports.
10
 Section 1886 of the Social Security Act established caps on the number of residents that a hospital may claim for
Medicare direct and indirect GME reimbursement.


Alabama, Georgia, and Tennessee Hospitals’ Medicare GME Reimbursement (A-02-13-01012)                                3
result, Cahaba did not have procedures to adequately ensure that no resident was counted as
more than one FTE in the calculation of Medicare GME payments.

                                     RECOMMENDATIONS

We recommend that Cahaba:

    •	 recover $84,355 in excess Medicare GME reimbursement paid to nine hospitals in MAC
       Jurisdiction 10,

    •	 adjust the direct and indirect FTE counts claimed on the Medicare cost reports covering
       FYs 2009 and 2010 for each of the hospitals that did not always claim Medicare GME
       reimbursement in accordance with Federal requirements,

    •	 consider developing procedures to ensure that no resident is counted as more than one
       FTE in the calculation of Medicare GME payments, and

    •	 consider identifying and recovering any additional overpayments made to hospitals in
       MAC Jurisdiction 10 for residents whose FTE count exceeded one on Medicare cost
       reports submitted after FY 2010.

CAHABA COMMENTS

In written comments on our draft report, Cahaba did not concur with our recommendations.
Regarding our first two recommendations, Cahaba stated that our related findings have an
immaterial impact to the total reimbursable cost on each of the nine hospitals’ cost reports and
that Cahaba will not reopen and adjust the cost reports to collect excess GME reimbursement.
Regarding our third and fourth recommendations, Cahaba stated that its statement of work with
CMS does not require or provide funding for the review of IRIS data and its current procedures
provide reasonable assurance that GME reimbursement is free from material errors.

Cahaba’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Cahaba’s comments, we maintain that our findings and recommendations are
valid. As stated in our conclusion, we acknowledge that there was no requirement for Cahaba to
review IRIS data to detect whether a resident in its jurisdiction had an overlapping rotational
assignment at more than one hospital. Nevertheless, we identified FTE overstatements that are
inconsistent with Federal regulations (42 CFR §§ 412.105(f)(1)(iii)(A) and 413.78(b)) on
Medicare GME payments.
.
We have provided Cahaba with the overlapping resident data for the hospitals in Jurisdiction 10,
along with rotation schedules and other supporting documentation for the FTE overstatements in
its jurisdiction. We believe that Cahaba has sufficient information and documentation needed to
make the adjustments and appropriate recoveries for all the hospitals that overstated FTE counts.


Alabama, Georgia, and Tennessee Hospitals’ Medicare GME Reimbursement (A-02-13-01012)               4
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                                                                         Report            Date
                          Report Title
                                                                         Number           Issued
Review of Resident Data Reported in the Intern and Resident
Information System for Medicare Cost Reports Submitted to             A-02-09-01019     01/03/2012
Highmark Medicare Services, Inc.
Review of Resident Data Reported in the Intern and Resident
Information System for Medicare Cost Reports Submitted to             A-02-09-01021     10/13/2010
National Government Services, Inc.
Review of Resident Data Reported in the Intern and Resident
Information System for Medicare Cost Reports Submitted to
                                                                      A-02-10-01006     04/02/2012
Highmark Medicare Services, Inc., and National Government
Services, Inc.
Review of Resident Data Reported in the Intern and Resident
Information System for Medicare Cost Reports Submitted to
                                                                      A-02-10-01007     04/02/2012
National Government Services, Inc., and Highmark Medicare
Services, Inc.




Alabama, Georgia, and Tennessee Hospitals’ Medicare GME Reimbursement (A-02-13-01012)                5
                     APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed IRIS data that hospitals in MAC Jurisdiction 10 submitted to support resident
training costs claimed on annual Medicare cost reports covering FYs 2009 and 2010. We did not
assess Cahaba’s overall internal control structure. Rather, we limited our review of internal
controls to those applicable to our audit, which did not require an understanding of all internal
controls over the Medicare program.

METHODOLOGY

To accomplish our objective, we:

     •	 reviewed applicable Federal laws, regulations, and guidance;

     •	 held discussions with Cahaba officials to gain an understanding of Cahaba’s procedures
        for reviewing IRIS data submitted by hospitals in MAC Jurisdiction 10;

     •	 obtained FYs 2009 and 2010 IRIS data from Cahaba for all hospitals in MAC

        Jurisdiction 10; 


     •	 analyzed the IRIS data to identify residents claimed by more than one hospital for the
        same rotational assignment (e.g., weekly rotation schedule) and for whom the total FTE
        count exceeded one;

     •	 obtained and reviewed rotation schedules and other documentation from each hospital in
        MAC Jurisdiction 10 for each resident for whom the total FTE count exceeded one to
        determine which hospital should have claimed Medicare GME reimbursement for the
        resident during an overlapping period;

     •	 adjusted the claimable direct and/or indirect FTE counts for hospitals that should not
        have claimed GME reimbursement for residents during an overlapping period or
        provided conflicting documentation that did not resolve the overlapping rotation dates; 11

     •	 determined the net dollar effect of the adjustments to the direct and indirect FTE counts
        by recalculating each hospital’s Medicare cost report(s); 12 and


11
  We contacted hospitals to determine which hospital was responsible for a resident’s overlapping rotation date that
exceeded one FTE. If the hospitals could not agree on which hospital should have claimed the resident, we
questioned the overlapping FTE count for each hospital using procedures that other MAC contractors have in place.
12
  For 2009 and 2010 cost reports, we used Worksheet E-3, Part IV, to recalculate direct GME reimbursement and
Worksheet E, Part A, for indirect GME reimbursement. For 2011 and 2012 cost reports, we used Worksheet E-4 to
recalculate direct GME reimbursement and Worksheet E, Part A, for indirect GME reimbursement. (We analyzed
different worksheets because CMS changed the worksheets during our audit period.)


Alabama, Georgia, and Tennessee Hospitals’ Medicare GME Reimbursement (A-02-13-01012)                                  6
    •   discussed the results of our review with Cahaba officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




Alabama, Georgia, and Tennessee Hospitals’ Medicare GME Reimbursement (A-02-13-01012)              7
                                    APPENDIX C: CAHABA COMMENTS





           CAHABA
        CiOOVERNMENT
           BENEFIT
       ADMINJ8TRATORS,LLC

            May 30, 2014



            US DepartmentofHealth and Human Services
            Office of the Inspector General
            Olfice of Audit Setvices, Region IT
            Attention: James P. Edert, Regional b1spector General for Audit Setvices
            Jacob K. Javits Federal Building
            26 Federal Plaza, Room 3900
            New York, NY 10278


            RE:        Some Hospitals in AJabama, Georgia, and Tennessee Claimed Residet1ts
                       as More Than One Full-Time Equivalent (Report umber A-02-13-01012)

            Dear :!vir. Edert:

            We appreciate the opportunity to respond to the above mentioned draft report. Cahaba has reviewed the
            report and its response to each recommendation is as follows:

                  1. Recover $84,355 in excess Medicare GME reimbursement paid to nine hospitals in MAC
                     Jurisdiction 10: Cahaba does not concur;

                  2.   Adjust the direct and indirect FTE counts claimed on the Medicare cost repotts covet·ing FYs
                       2009 and 2010 for each of the hospitals that did not always claim Medicare GME reimbursement
                       in accordance with Federal requirements: Cahaba does not concur;

                  3. Consider developing procedures to ensure that no resident is counted as more than one FTE in the
                     calculation of Medicare GME payments: Cahaba does not concur; and

                  4.   Consider identifying and recovering any additional overpayments made to hospitals in MAC
                       Jurisdiction 10 for residents whose FTE count exceeded one on Medicare cost reports submitted
                       after FY20 10: Cahaba does not concur


            Reason(s) for nonconcun·ence with recommendation # 1 and #2:
            Each of the individual nine hospital cost rep01ts where the OIG found excess GME reimbursement has an
            immaterial impact to the total reimbursable cost on each cost report; therefore a reopening of each
            individual cost rep01t or additional scoping of current work is not necessary.

            In addition, due to the immatet·iality of the adjustments found by the OIG to the direct and indirect FTE
            counts on the 2009 and 2010 cost reports, we will not incorporate the specific FTE overstatements noted
            by the OIG, but proceed with our current procedures.




                                            Cahaba Government Benefit Ad.m.JnjstralOrs•, LLC
                                       500 Corporate Parkway • Birmingham, Alabama 55242-5448
                                                 A CMS Medicare Adm.in!JIIralive Contractor




Alabama, Georgia, and Tennessee Hospitals’ Medicare GME Reimbursement (A-02-13-01012)                                   8
            Reason(s) for nonconcun·ence with recommendation # 3 and #4:
            Cahaba GBA is contracted by CMS to fulfill the directives outlined in the JlO Statement of Work (SOW).
            The JlO SOW requires the contractor to petform an analysis of the provider 's cost repott to detennine the
            reasonableness of the data conta ined therein. As part of this analysis, risk is assessed and audit resources
            are a Uocated accordingly. Our audit plan considers empirical knowledge, past petfonnance of the
            provider, and the relative risk associated with the settlement amount calculated from the cost report.

            There is no specific requirement in the JlO SOW to audit IRIS data. However, where we fmd that there is
            a need to scope Gl'vfEIIME reimbursement for additional revie·w, we do review hospital rotation
            schedules, the IRIS data source documentation, to detetmine if adjustments to the FTE count~ are
            wan·anted.

            Budgetary constraints do not allow tor Cahaba to perform a 100% review of each hospital 's GMEITME
            reimbursement. We maintain that our process provides reasonable assurance that the G.tv1E/IME
            reimbursement is free from material error. The OIG' s review documented the following:

                             GMFJIME R eimbursem ent. o f Total P r ovider Population
                             Reviewed

                                       Reimbursement         Reimbursement       Reimbursetnent
                                      FYs 2009 and 2010      Overstatement       Percentage Error
                            I GME          $189,000,000             $38,851                0.02%
                            I TME          $444,000,000             $45,504                0.01%

                             GME/IME R eimbu rsem ent o f 17 Provid ers with E rr ors Noted
                                  Reimbursement       Reimbursement          Reimbursetnent
                                  FYs 2009 and 2010 Overstatement           Percenta~.re Enor
                            I GME             $118,000,000            $38,851                0.03%
                            l iME             $315,000,000            $45,504                0.01%


            The review conducted by the OIG supports that our current procedures provide reasonable assurance that
            no material overpayment of medical education reimbursement exists. FUithet·, the JlO SOW does not
            require or provide funding for the review ofiRIS data or 100% of all FTE counts claimed.


            If you should have any questions regarding this report, please contact me at (205) 220- 1385
            (dgreene@cahabagba.com) or Lisa Bramer at (205)220 -1957 (lbramer@cahabagba.com).

            Sincet·ely,

            /S . Danie le Greene/

            S. Daniele Greene
            Internal Audit
            Cahaba Government Benefit Administrators®, LLC




            Cahaba Response (A-02-13-01012)                                                                        Page2




Alabama, Georgia, and Tennessee Hospitals’ Medicare GME Reimbursement (A-02-13-01012)                                       9
